No. 20-637
IN THE

~upreme ~ourt of tbe mlniteb ~tates5
DARRELL HEMPHILL,

Petitioner,
V.

STATE OF NEW YORK,

Respondent.

CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 29th day of June, 2021, I caused three copies of the Brief of the Bronx
Defenders, Neighborhood Defender Service of Harlem, Brooklyn Defender Services,
Queens Defenders, and New York County Defender Service as Amici Curiae in Support
of Petitioner to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel ident ified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.
Jeffrey L. Fisher
STANFORD LAW S CHOOL
SUPREME COURT CLINIC

559 Nathan Abbott Way
Stanford, CA 94305
(650) 724-7081
jlfisher@law.stanford.edu

Counsel for Petitioner

Noah J. Chamoy

OFFICE OF THE BRONX DISTRICT ATTORNEY

198 East 161 Street
Bronx,NY 10451
(718) 838-7142
chamoyn@bronxda.nyc.gov

Counsel for Respondent

v

David Debold

